Appendix A

United States v. Avila-Jaimes
United States Court of Appeals for the Fifth Circuit
April 14, 2020, Filed
No. 19-50019
Reporter
801 Fed. Appx. 301 *; 2020 U.S. App. LEXIS 11761 **
UNITED STATES OF AMERICA, PlaintiffAppellee v. OSCAR ARMANDO AVILAJAIMES, Defendant-Appellant

U.S. Attorney, U.S. Attorney's Office, Western
District of Texas, San Antonio, TX.
OSCAR ARMANDO AVILA-JAIMES, Defendant
- Appellant, Pro se, Loretto, PA.

Notice: PLEASE REFER TO FEDERAL RULES
OF APPELLATE PROCEDURE RULE 32.1 Judges: Before JONES, HIGGINSON, and
GOVERNING
THE
CITATION
TO OLDHAM, Circuit Judges.
UNPUBLISHED OPINIONS.

Opinion
Prior History: [**1] Appeal from the United
States District Court for the Western District of
Texas. USDCNo. l:18-CV-437.
Avila-Jaimes v. United States, 2018 U.S. Dist.
LEXIS 169978 (W.D. Tex., Sept. 28, 2018)

Disposition: COA DENIED; AFFIRMED.

Core Terms
ineffective, sentence, jurists, constitutional claim,
evidentiary hearing, argues

Counsel: For UNITED STATES OF AMERICA,
Plaintiff - Appellee: Joseph H. Gay, Jr., Assistant

[*301] PER CURIAM:*
Oscar Armando Avila-Jaimes, federal prisoner #
44.428-380, moves for a certificate of appealability
(COA) to appeal the district court's denial of his 28
U.S.C. § 2255 motion challenging his conviction
and sentence for possession with intent to distribute
cocaine and one count of money laundering. He
argues that trial counsel was ineffective for failing
to advise him that he could not contest his guilt if
he pleaded guilty and for misleading him. He also
asserts that counsel was ineffective in failing to
challenge the evidence presented at sentencing. He
also argues that he was entitled to an evidentiary
hearing. Avila-Jaimes does not renew his claims
alleging ineffective assistance for failing to conduct
an investigation and that his sentence was

‘Pursuant to 5th Cir. R. 47.5, the court has determined that this
opinion should not be published and is not precedent except under
the limited circumstances set forth in 5th Cir. R. 47.5.4.

Page 2 of2
801 Fed. Appx. 301, *301; 2020 U.S. App. LEXIS 11761, **1

unconstitutional under the Eighth Amendment.
Accordingly, [**2] these issues are abandoned. See
Hughes v. Johnson, 191 F.3d 607, 613 (5th Cir.
1999).
In order to obtain a COA, Avila-Jaimes must make
"a substantial showing of the denial of a
constitutional right." 28 U.S.C. § 2253(c)(2); see
Slack v. McDaniel, 529 U.S. 473, 483-84, 120 S.
Ct. 1595, 146 L. Ed. 2d 542 [*302] (2000). Where
the district court denies relief on the merits, an
applicant must show that reasonable jurists "would
find the district court's assessment of the
constitutional claims debatable or wrong." Slack,
529 U.S. at 484. An applicant satisfies the COA
standard "by demonstrating that jurists of reason
could disagree with the district court's resolution of
his constitutional claims or that jurists could
conclude the issues presented are adequate to
deserve encouragement to proceed further." MillerEl v. Cockrell, 537 U.S. 322, 327, 123 S. Ct. 1029,
154 L. Ed. 2d 931 (2003). Avila-Jaimes has not met
this standard. His motion for a COA is denied.
We construe his motion for a COA with respect to
the district court's denial of an evidentiary hearing
as a direct appeal of that issue, see Norman v.
Stephens, 817 F.3d 226, 234 (5th Cir. 2016), and
affirm.
COA DENIED; AFFIRMED.
End of Document

Appendix B

Avila-Jaimes v. United States
United States District Court for the Western District of Texas, Austin Division
September 28, 2018, Decided; October 2, 2018, Filed
CAUSE NO. A-18-CV-437-SS; A-14-CR-300(1)-SS
Reporter
2018 U.S. Dist. LEXIS 169978 *; 2018 WL 4762137
OSCAR ARMANDO AVILA-JAIMES v.
UNITED STATES OF AMERICA

Subsequent History: Affirmed by, Certificate of
appealability denied United States v. Avila-Jaimes,
2020 U.S. App. LEXIS 11761 (5th Cir. Tex., Apr.
14, 2020)

Opinion by: SAM SPARKS

Opinion

ORDER
Prior History: United States v. Avila-Jaimes, 681
Fed. Appx. 373, 2017 U.S. App. LEXIS 4406 (5th
Cir. Tex., Mar. 13,2017)

Core Terms
sentence, ineffective, conspiracy, movant,
codefendants, imprisonment, Guidelines, cocaine,
contest, collaterally, certificate, evidentiary,
kilograms, vacate

Counsel: [* 1 ] For Oscar Armando Avila-Jaimes,
Plaintiff: Bernard V. Kleinman, LEAD
ATTORNEY, Law Office of Bernard V. Kleinman
PLLC, Somers, NY.

Judges: SAM SPARKS, SENIOR UNITED
STATES DISTRICT JUDGE.

BE IT REMEMBERED on this day, the Court
reviewed the file in the above-styled cause, and
specifically Movant Oscar Avila-Jaimes's Motion
to Vacate, Set Aside, or Correct Sentence under 28
U.S.C. § 2255. (ECF No. 978). Having considered
the motion, the governing law, and the file as a
whole, the Court now enters the following opinion
and order denying Avila-Jaimes's motion.
Background
An indictment returned October 7, 2014, charged
Avila-Jaimes and twenty-one codefendants with
one count of conspiracy to possess with intent to
distribute cocaine, in violation of 21 U.S.C. § 846,
and seven counts of possession with intent to
distribute cocaine, in violation of 21 U.S.C. §§
841(a)(1). (ECF No. 1). Avila-Jaimes was
represented by retained counsel throughout his
criminal proceedings.
On March 4, 2015, pursuant to a plea agreement
and at the conclusion of a Rule 11 hearing, AvilaJames pleaded guilty to both counts of a sealed
superseding information, charging one count of

Page 2 of 9
2018 U.S. Dist. LEXIS 169978, *1

possession with intent to distribute cocaine, in
violation of 21 U.S.C. §§ 841(a)(1) and
841(b)(1)(C), and one count of engaging [*2] in
monetary transactions in property derived from
unlawful activity, in violation of 18 U.S.C. § 1957.
(ECF No. 479). In return for his guilty pleas, the
Government agreed to cap Avila-Jaimes's sentence
at a total of twenty years' imprisonment and to cap
the amount of cocaine attributable to his
participation in the conspiracy at 50 kilograms.
(ECF No. 872 at 94). The written plea agreement
included a waiver of Avila-Jaimes's right to appeal
and to collaterally attack his conviction and
sentence, other than to assert a claim of ineffective
assistance of counsel or prosecutorial misconduct,
and it included a factual basis for his guilty plea.
(ECF No. 466). i
A Presentence Investigation Report ("PSR") was
prepared. The PSR increased Avila-Jaimes's
offense level by four points because he was an
organizer or leader of criminal activity involving
five or more participants and he directed at least
two conspirators to collect bulk currency. (ECF No.
681).2 The PSR decreased his offense level by three
points for acceptance of responsibility. (Id.). The
PSR calculated a total offense level of 38 and a
criminal history score of I, arriving at a guideline
range of imprisonment between 235 to 293 months
imprisonment. [*3] (Id.). Defense counsel filed
objections to the PSR, including an objection to the
amount of cocaine (50 kilograms) found
attributable to Avila-Jaimes's participation in the
conspiracy and an objection to the finding of his
leadership role in the conspiracy. (ECF No. 681;

1 Based on information from confidential informants, a cooperating
defendant, surveillance, controlled buys, and Title III wire and
electronic intercepts, law enforcement eventually executed a search
warrant at Avila-Jaimes' residence, finding "a black duffle bag in one
of AVILES-Jaimes vehicles parked in the driveway of the residence;
the bag contained 10 bricks (10.262 kg) [of cocaine]. Inside AVILA Jaimes' bedroom Agents found a loaded .40 caliber hand gun and
$82,312 in drug proceeds." (ECF No. 466 at 12).
2 At the time the PSR was prepared, three of Avila-Jaimes'
codefendants were fugitives and all of the other codefendants had
pleaded guilty and were awaiting sentencing.

ECF No. 872 at 98-101).
On June 8, 2015, Avila-Jaimes's counsel filed a
motion to withdraw. (ECF No. 647). The motion
was denied on June 9, 2015. (ECF No. 660). On
June 11, 2015, at the conclusion of an evidentiary
hearing and after overruling Avila-Jaimes's
objections to the PSR, the Court sentenced AvilaJaimes to concurrent terms of 240 months'
imprisonment on the drug charge and 120 months'
imprisonment on the money-laundering charge,
ordered the sentences to be followed by five years
of supervised release, and ordered Avila-Jaimes to
forfeit the $82,312 in drug proceeds seized from his
residence. (ECF No. 745).
Avila-Jaimes appealed his conviction and sentence.
(ECF No. 744). He asserted his guilty plea and
waiver of an appeal were unknowing and
involuntary because he required an interpreter and
he was not familiar with federal criminal procedure.
(ECF No. 962 at 4). He argued the Court erred by
failing to grant [*4] his "motion" to withdraw his
guilty plea, and alleged he was denied the effective
assistance of counsel. (ECF No. 962 at 7-8). AvilaJaimes also asserted the Court erred by enhancing
his offense level by four points for his position as a
leader or organizer of the conspiracy. (ECF No. 962
at 8). The Fifth Circuit Court of Appeals declined
to address the ineffective assistance of counsel
claim. (ECF No. 962 at 8). The Fifth Circuit
concluded Avila-Jaimes's guilty plea was knowing
and voluntary, rejected his claim of trial court error
on the merits, and affirmed his conviction and
sentence. (ECF No. 962).
Avila-Jaimes, through counsel, filed a timely
motion to vacate, set aside, or correct his sentence
under 28 U.S.C. § 2255. (ECF No. 978). He asserts
he was denied the effective assistance of counsel
because counsel did not "adequately apprise [him]
as to the effects of his guilty plea." (ECF No. 978 at
4). He further contends his sentence violates the
Eighth Amendment because it is disproportionate to
both his crime and his codefendants' sentences.
(ECF No. 978 at 4-5). Avila-Jaimes asks the Court

Page 3 of 9
2018 U.S. Dist. LEXIS 169978, *4

to vacate his guilty plea and sentence, and to grant
an evidentiary hearing to determine if he was
denied the effective [*5] assistance of counsel and
on the issue of the "[p]roper [Japplication of [the]
Guidelines." (ECF No. 978 at 13).

Analysis

I. Section 2255-Legal Standard
Generally, there are four grounds upon which a
defendant may move to vacate, set aside, or correct
his sentence pursuant to 28 U.S.C. § 2255: (1) the
imposition of a sentence in violation of the
Constitution or the laws of the United States; (2) a
lack of jurisdiction of the district court that imposed
the sentence; (3) the imposition of a sentence in
excess of the maximum authorized by law; and (4)
the sentence is otherwise subject to collateral
attack. 28 U.S.C. § 2255; United States v. Placente,
81 F.3d 555, 558 (5th Cir. 1996). Section 2255 is
an extraordinary measure; it cannot be used for
errors that are not constitutional or jurisdictional if
those errors could have been raised on direct
appeal. United States v. Stumpf 900 F.2d 842, 845
(5th Cir. 1990). Notably, misapplications of the
Sentencing Guidelines are neither constitutional nor
jurisdictional and, therefore, are not cognizable in a
§ 2255 action. See United States v. Williamson, 183
F.3d 458, 462 (5th Cir. 1999); United States v.
Segler, 37 F.3d 1131, 1134 (5th Cir. 1994).

II. Application

A. Ineffective assistance of counsel - plea
proceedings
In his § 2255 motion, Avila-Jaimes asserts he was
denied the effective assistance of counsel "during
the plea negotiation process, at the plea proceeding,
and then at sentencing . . ." (ECF No. 980 at 25).

Avila-Jaimes contends counsel did [*6] not ensure
he fully understood his waiver of his constitutional
rights and did not "adequately apprise [AvilaJaimes] as to the effects of his guilty plea." (ECF
No. 978 at 4). Avila-Jaimes alleges he "did not
understand what was going on, had not been fully
informed as to what rights he was waiving, clearly
had not had the requisite opportunity to review and
comprehend the plea terms, and did not understand
what or even why he was pleading guilty." (ECF
No. 980 at 6). Although Avila-Jaimes waived his
right to collaterally attack his conviction and
sentence in his plea agreement, this waiver
excepted claims of ineffective assistance of
counsel. (ECF No. 466). Additionally, even if a
defendant waives his right to collaterally attack his
conviction and sentence, he can avoid those
waivers based on ineffective assistance of counsel
if he establishes "the claimed assistance directly
affected the validity of that waiver or the plea
itself." United States v. White, 307 F.3d 336, 343
(5th Cir. 2002); Blancas v. United States, 344 F.
SuPP- 2d 507’ 528 (W-D- Tex- 2004)The Sixth Amendment guarantees criminal
defendants the right to effective assistance of
counsel, including the effective assistance of
counsel when entering a guilty plea. Lee v. United
States, 137 S. Ct. 1958, 1964, 198 L. Ed. 2d 476
(2017). An ineffective assistance of counsel claim
in the context of a guilty plea is subject to [*7] the
same standard as any other ineffective assistance
claim, i.e., the Strickland standard. Hill v. Lockhart,
474 U.S. 52, 57, 106 S. Ct. 366, 88 L. Ed. 2d 203
(1985). To successfully state a Strickland claim, a
movant
must
demonstrate
his
counsel's
performance was deficient and the deficient
performance prejudiced his defense. Strickland v.
Washington, 466 U.S. 668, 687, 104 S. Ct. 2052, 80
L. Ed. 2d 674 (1984). The burden of proof is on the
movant alleging ineffective assistance of counsel.
United States v. Chavez, 193 F.3d 375, 378 (5th
Cir. 1999).
To satisfy the first prong of the Strickland test, a
movant must establish his counsel's performance

Page 4 of 9
2018 U.S. Dist. LEXIS 169978, *7

fell below an objective standard of reasonable
competence. Lockhart v. Fretwell, 506 U.S. 364,
369-70, 113 S. Ct. 838, 122 L. Ed. 2d 180 (1993).
"To show that his attorney's performance was
deficient, [Avila-Jaimes] must show that the
attorney’s representation fell below an objective
standard of reasonableness and that counsel made
errors so serious that counsel was not functioning
as the 'counsel' guaranteed by the Sixth
Amendment." United States v. Kayode, 111 F.3d
719, 723 (5th Cir. 2014) (internal quotations
omitted).
In the context of a guilty plea, Stricklands
"prejudice" analysis "focuses on whether counsel's
constitutionally ineffective performance affected
the outcome of the plea process." Hill, 474 U.S. at
58. Accordingly, to satisfy the prejudice test the
movant must show "a reasonable probability that,
but for counsel's errors, he would not have pleaded
guilty and would have insisted on going to trial."
Id. A movant [*8] may also establish prejudice
arising from counsel's alleged deficiencies by
showing he "would have [had] a reasonable chance
of obtaining a more favorable result" absent
counsel's errors, i.e., an acquittal or a lesser
sentence at trial. United States v. Batamula, 823
F.3d 237, 240 (5th Cir.), cert, denied, 137 S. Ct.
236, 196 L. Ed. 2d 134 (2016).
Avila-Jaimes must affirmatively plead the actual
prejudice resulting from his counsel's deficiencies.
Hill, 474 U.S. at 60. The probability of prejudice
may not be based upon conjecture or speculation.
United States v. Woods, 870 F.2d 285, 288 n.3 (5th
Cir. 1989). Reviewing courts must consider the
totality of the evidence before the finder of fact in
assessing whether the result would likely have been
different absent the alleged errors of counsel ■
Strickland, 466 U.S. at 695-96. Furthermore, a
court's prediction about whether the defendant had
a reasonable chance of obtaining a more favorable
result should be made objectively. Batamula, 823
F.3d at 240 (citing Pilla v. United States, 668 F.3d
368, 373 (6th Cir. 2012) ("[Defendant] cannot
[show prejudice] merely by telling us now that she

would have gone to trial then if she had gotten
different advice. The test is objective, not
subjectivef.]")).
Avila-Jaimes claims he was induced to plead guilty
under the assumption he could contest his factual
However, he has not produced any evidence
that his counsel, or anyone else, advised or
Prorn'se<^
cou^ plead guilty [*9] and then
contest his factual guilt. Moreover, Avila-Jaimes's
allegation is refuted by the record in this matter. At
his Rule 11 hearing, Avila-Jaimes told the
Magistrate Judge he had discussed his case with
counsel, including "anything [he] thought [counsel]
needed to know about [him] or about [his] case so
that [counsel] could do a good job representing
[him]." (ECF No. 871 at 5, 7). Defense counsel
informed the Magistrate Judge the plea agreement
provided Movant could contest issues related to
sentencing. (Id. at 19-20). Avila-Jaimes told the
court the plea agreement was translated for him, he
had discussed the plea agreement with counsel, and
he understood the terms of the plea agreement. (Id.
at 8). Avila-Jaimes stated he had discussed entering
a guilty plea with his counsel and declared he was
satisfied with counsel's representation and advice,
(Id. at 7, 24, 27). After conferring with his counsel
during the hearing, Avila-Jaimes stated counsel had
answered his questions and he was ready to proceed
with his plea. (Id. at 13, 17). Avila-Jaimes told the
court he was "freely and voluntarily" pleading
guilty, and he was pleading guilty because he was
guilty and for no other reason. (Id. at 38). He
acknowledged he had read the factual basis for
his [* 10] guilty plea contained in the plea
agreement and discussed it with his counsel, and
declared under oath the factual basis was "true and
correct about what happened in [his] case and about
what [he] did." (Id. at 40).
Avila-Jaimes has not met his burden of establishing
his counsel's performance was deficient because
counsel failed to adequately advise him regarding
his guilty plea. This allegation is refuted by the
record, i.e., Avila-Jaimes's sworn statements that he
had discussed the plea agreement with his counsel,

Page 5 of 9
2018 U.S. Dist. LEXIS 169978, *10

he understood the terms of the plea agreement, and
he was satisfied with his counsel's representation.
"[A] defendant ordinarily will not be heard to refute
[his] testimony given at a plea hearing while under
oath." United States v. Cervantes, 132 F.3d 1106,
1110 (5th Cir. 1998). 'Solemn declarations in open
court carry a strong presumption of verity,' forming
a 'formidable barrier in any subsequent collateral
proceedings.' Id. (quoting Blackledge v. Allison,
431 U.S. 63, 73-74, 97 S. Ct. 1621, 52 L. Ed. 2d
136, (1977)). A movant is not entitled to relief on a
claim of an invalid guilty plea absent independent
indicia of the likely merits of the claim, typically in
the form of one or more affidavits from reliable
third parties. Id. If the petitioner fails to meet his
burden of proof with regard to his claim, relief may
be denied [*11] in the light of other evidence in the
record. Id. Avila-Jaimes presents no independent
indicia to support his claim of ineffective assistance
of counsel based on counsel's alleged failure to
adequately advise him regarding his guilty plea and
the terms of the plea agreement.

that needs to be clear that [*12] I'm accepting
but I have the right to fight for against what I'm
being charged with. THE COURT: Okay. So
let me make sure you understand that if you
plead guilty to this charge, you're admitting
what's set out here. So your right to contest
what's charged will — you know, you're giving
up that right by pleading guilty. You're saying,
I'm guilty of this charge. Now, that charge is
that, as you heard read, that between October of
2013 and July — roughly, July of 2014, that
you attempted or did engage in a monetary
transaction, specifically, having Mr. Eugenio
Lucio do this travel to Brownsville with this
money, and that when he was stopped, he was
found with this money. So if you plead guilty
to this charge, you're admitting all of that. If
you're not ready to admit to that, you know, I
can't — I can't have you plead guilty today.
DEFENDANT AVILA: No. That's fine.
THE COURT: So you understand that that's
what you're admitting to?
DEFENDANT AVILA: Yes.
Nor can Avila-Jaimes show he was prejudiced by
THE COURT: And you accept that you're
counsel's alleged failure to ensure he understood
guilty of Count 2, then?
the plea agreement. A judge's admonitions during a
DEFENDANT AVILA: Yes.
plea colloquy are not a substitute for effective
THE COURT: Are you okay with that?
assistance of counsel and, therefore, the
DEFENDANT AVILA: Yes.
admonitions have no bearing on the first prong of (ECFNo. 871 at 37-38).
the Strickland test. United States v. Kayode, 111
F.3d 719, 728-29 (5th Cir. 2014). "However, while
THE COURT: And then, finally, Mr. Avila,
judicial admonishments are not a substitute for
you've seemed a little hesitant here. [*13] And
effective assistance of counsel, they are relevant
you did take a break during the proceeding to
under the second Strickland prong in determining
talk further with your attorney. It's an important
whether a defendant was prejudiced by counsel's
decision to plead guilty. And so, I want to
error." Id. At the Rule 11 hearing the Magistrate
make sure that you're comfortable with your
Judge addressed any confusion about the plea
decision and that you're making your decision
agreement by clarifying the scope of Avila-Jaimes's
to plead guilty freely and this is what you want
reserved and forfeited rights. Notably, the
to do.
following colloquies occurred during the Rule 11
DEFENDANT AVILA: Yes. Like I said
hearing:
before, I have signed the agreement because it
THE COURT: As to Count 2, the money­
includes a clause where I have a right to contest
laundering charge, how do you wish to plead,
those things.
guilty or not guilty?
THE COURT: Okay. So just so you understand
what you've kept in that agreement, the rights
DEFENDANT AVILA: Well, it's guilty, but
that you have to contest things will be about

Page 6 of 9
2018 U.S. Dist. LEXIS 169978, *13
sentencing, and it will be about —
DEFENDANT AVILA: Yes.
THE COURT: — how responsible you should
be held or not held. How much money may or
may not have transported.
DEFENDANT AVILA: Yes.
THE COURT: The drug quantity, you've got an
agreement with the government about that. But
you can talk about less than 50 kilograms, what
the correct amount is, that sort of thing. Do you
understand that that's the limit?
DEFENDANT AVILA: Yes.

valid search warrant — there is little likelihood
Avila-Jaimes would have been acquitted had he
insisted on going to trial on all of the charges stated
in the indictment, and he has not shown he would
have received a lesser sentence had he proceeded to
trial. The plea agreement "capped" Avila-Jaimes's
sentence at a term of twenty years' imprisonment:
had he proceeded to trial on the charges stated in
the indictment [* 15] and been found guilty he
faced a potential sentence of life imprisonment,
(ECF No. 656 at 6).

THE COURT: But you're not going to be able B. Ineffective assistance of counsel - sentencing
to say, 1 didn't do this at all.
Avila-Jaimes also fails to demonstrate counsel's
DEFENDANT AVILA: Yes.
representation during the sentencing hearing fell
below objective standards of reasonableness. He
THE COURT: Do you understand that? Okay.
argues the testimony of DEA Special Agent Rich
All right.
regarding Avila-Jaimes's leadership role in the
And with that understanding, you're conspiracy was conclusory and hearsay, implying
counsel erred by failing to object to this testimony.
comfortable with your [* 14] plea?
(ECF No. 980 at 11). However, during sentencing a
DEFENDANT AVILA: Yes.
district judge may properly consider any relevant
evidence without regard to its admissibility under
THE COURT: Okay. Do you have any
the rules of evidence applicable at trial, provided
questions?
the information has sufficient indicia of reliability
to support its probable accuracy. United States v.
DEFENDANT AVILA: No.
Gaytan, 74 F.3d 545, 558 (5th Cir. 1996); United
(Id. at 42-43) (emphasis added).
States v. Thomas, 12 F.3d 1350, 1372 (5th Cir.
1994). Even uncorroborated hearsay, offered as
Accordingly, even if Avila-Jaimes could show his
sworn testimony by a government agent at a
counsel's performance was deficient, he is unable to
sentencing hearing, bears sufficient indicia of
establish the requisite prejudice because Avilareliability to support a district court's decision
Jaimes was advised as to the rights he was waiving
regarding sentencing. United States v. Nava, 624
by pleading guilty, and he knowingly and voluntary
F.3d 226, 230-31 (5th Cir. 2010); United States v.
stated he was factually guilty of the crimes of
Roush, 466 F.3d 380, 387 (5th Cir. 2006); Gaytan,
conviction.
74 F.3d at 558; Thomas, 12 F. 3d at 1372.
Counsel's
"failure" to object to the agent's
Moreover, Avila-Jaimes has not established a
reasonable probability the result of the proceeding testimony cannot be considered ineffective
would have been different but for counsel's assistance because counsel is not deficient for
unprofessional errors. Hill, 474 U.S. at 58. The failing to raise a non-meritorious objection. United
evidence against Avila-Jaimes was substantial, States v. Kimler, 167 F.3d 889, 893 (5th Cir. 1999).
including electronic surveillance, the statements of
Avila-Jaimes also alleges [* 16] his counsel made
confidential informants, the statements of
little effort to establish Avila-Jaimes's lesser role in
codefendants, and evidence seized as a result of a

Page 7 of 9
2018 U.S. Dist. LEXIS 169978, *16

the conspiracy. This allegation is contradicted by
the record, which reveals counsel questioned
Special Agent Rich regarding his conclusion that
Avila-Jaimes was a leader of the conspiracy. (ECF
No. 872 at 27-40). Furthermore, Avila-Jaimes's
leadership role in the conspiracy was documented
by surveillance, wire taps, and the information
provided by codefendants and confidential
informants.
C. Ineffective assistance of counsel - failure to
investigate
Avila-Jaimes is unable to prove counsel was
ineffective for failing to investigate exculpatory
evidence regarding the charge of money
laundering; he alleges the cash recovered during the
search of his residence was the legitimate proceeds
of automobile sales. This allegation is contradicted
by Avila-Jaimes's statements, in his plea agreement
and at his Rule 11 hearing, regarding his
satisfaction
with
counsel's
representation.
Additionally, at his Rule 11 hearing, Avila-Jaimes
testified he had presented all relevant information
to his attorney. (ECF No. 871 at 5, 7). AvilaJaimes's statements at his Rule 11 hearing, with
regard to his satisfaction with counsel's
representation and the facts [* 17] supporting his
guilt "trump" his current statements to the contrary.
United States v. Cothran, 302 F.3d 279, 284 (5th
Cir. 2002) (giving statements during a plea
colloquy "greater weight than unsupported, afterthe-fact, self-serving assertions"). Furthermore,
even if Avila-Jaimes obtained some income
through legitimate automobile sales, as he alleges
(ECF No. 980 at 29), this would not prove he did
not launder money obtained from drug trafficking.
Notably, more than $80,000 in cash was seized
from Avila-Jaimes's home — it is not likely this
sum would have been remitted to him in cash if it
was the result of legitimate income. Nor has AvilaJaimes shown he would not have accepted the plea
offer but would have insisted on going to trial and
received a lesser sentence but for his counsel's
alleged failure to investigate potentially

exculpatory evidence regarding the money
laundering charge. The written factual basis for his
guilty plea, which Avila-Jaimes acknowledged was
true and correct, is sufficient to establish his guilt
on the charge of money laundering.
D. Disproportionate sentence
Avila-Jaimes alleges his sentence violates the
Eighth Amendment because it is not "proportionate
to the crime for which the defendant was
convicted" and the sentence is "out[*18] of
proportion" to the sentences "imposed upon all
other similarly situated individuals." (ECF No. 980
at 20-21, 22). He argues, citing to a case decided by
the United States District Court for the District of
Massachusetts, "this principle can be applied
equally to codefendants where the disparity is
unjustified and it is of a significant amount." (ECF
No. 980 at 22). He notes:
Mr. Avila-Jaimes['s] sentence was the highest
of all of the named defendants, and above that
of the second highest by 72 months! And, after
that, the third highest sentence was surpassed
by 143 months! The average sentence imposed,
on his co-defendants, was 50 months; Mr.
Avila-Jaimes['s] sentence of 240 months was
almost 500% above that!
(ECF No. 980 at 23).
Constitutional errors, such as an Eighth
Amendment claim, may be addressed in a § 2255
action only if such errors could not have been
raised in a direct appeal. United States v. Webster,
392 F.3d 787, 799-800 (5th Cir. 2004); United
States v. Seyfert, 67 F.3d 544, 546 (5th Cir. 1995);
United States v. Shaid, 937 F.2d 228, 231-32 (5th
Cir. 1991). To have such a claim considered on the
merits, the movant must show both "cause"
excusing their failure to raise the issue on appeal
and "actual prejudice" resulting from the claimed
error. United States v. Frady, 456 U.S. 152, 167,
102 S. Ct. 1584, 71 L. Ed. 2d 816 (1982); United
States v. Acklen, 47 F.3d 739, 741 (5th Cir. 1995);
Shaid, 937 F.2d at 232. Avila-Jaimes makes no

Page 8 of 9
2018 U.S. Dist. LEXIS 169978, *18

showing of cause and prejudice with regard to his
failure to present this claim in his direct
appeal. [*19]
Avila-Jaimes is unable to establish prejudice arising
from his procedural default of his Eighth
Amendment claim, because it is without merit.
Avila-Jaimes was sentenced within the relevant
guidelines range and his sentence was within the
statutory maximum. A sentence prescribed by the
United States Sentencing Guidelines and within the
statutory maximums established by Congress is
unlikely to raise Eighth Amendment issues. United
States v. Sullivan, 895 F.2d 1030, 1033 (5th Cir.
1990). The Fifth Circuit Court of Appeals has
"recognized that the Guidelines are a 'convincing
objective indicator of proportionality." United
States v. Cardenas—Alvarez, 987 F.2d 1129, 1134
(5th Cir. 1993); see also United States v. ManotasMejia, 824 F.2d 360, 367 (5th Cir. 1987) (holding
imposition of the maximum prison sentence for
conspiracy to possess with the intent to distribute
four kilograms of cocaine did not violate the Eighth
Amendment). Moreover, the United States
Supreme Court has held lengthy sentences, even for
first time offenders, do not violate the Eighth
Amendment. Harmelin v. Michigan, 501 U.S. 957,
994-95, 111 S. Ct. 2680, 115 L. Ed. 2d 836 (1991)
(holding a mandatory life sentence for a conviction
for conspiracy to distribute 295 kilograms of
cocaine with no prior felony convictions was not
cruel and unusual punishment); Hutto v. Davis, 454
U.S. 370, 373-74, 102 S. Ct. 703, 70 L. Ed. 2d 556
(1982) (affirming a 40-year sentence for possession
of 9 ounces of marijuana with intent to deliver). See
also United States v. Looney, 532 F.3d 392, (5th
Cir. 2008) (holding a 45-year sentence for
conspiracy
to
possess
with
intent
to
distribute [*20] methamphetamine and firearms
offenses may be "unduly harsh" but does not
violate the Eighth Amendment).
Additionally, the Court is not required to "avoid
sentencing disparities between co-defendants who
might not be similarly situated." United States v.
Guillermo Balleza, 613 F.3d 432, 435 (5th Cir.

2010). In fact, the Fifth Circuit has routinely held a
defendant cannot "attack his own guideline range
sentence based upon the sentences of his
coconspirators." United States v. Arlen, 947 F.2d
139, 147 (5th Cir. 1991); see also United States v.
Sparks, 2 F.3d 574, 587 (5th Cir. 1993); United
States v. Rodriguez, 990 F.2d 1252 (5th Cir. 1993);
United States v. Harrison, 918 F.2d 469, 475 (5th
Cir. 1990); United States v. Pierce, 893 F.2d 669,
678 (5th Cir. 1990).

e.

Evidentiary hearing

A hearing is not required to dispose of issues raised
in a § 2255 motion if the motion and record in the
case conclusively show relief is not appropriate.
United States v. Samuels, 59 F.3d 526, 530 (5th Cir.
1995)- The record in this case conclusively shows
Avila-Jaimes is not entitled to relief and, therefore,
his request for an evidentiary hearing is denied.

Conclusion
An appeal may not be taken to the court of appeals
from a final order in a § 2255 proceeding "unless a
circuit justice or judge issues a certificate of
appealability." 28 U.S.C. § 2253(c) (1)(A).
Pursuant to Rule 11 of the Federal Rules Governing
Section 2255 Proceedings, the district court must
issue or deny a certificate of appealability when it
enters a final order adverse to the applicant.
A certificate of appealability may issue only if a
movant has made a substantial showing of the
denial of a constitutional right. 28 U.S.C. §
2253(c)(2). The Supreme Court fully explained the
requirement [*21] associated with a "substantial
showing of the denial of a constitutional right" in
Slack v. McDaniel, 529 U.S. 473, 484, 120 S. Ct.
1595, 146 L. Ed. 2d 542 (2000). In cases where a
district court rejects a movant's constitutional
claims on the merits, "the petitioner must
demonstrate that reasonable jurists would find the
district court's assessment of the constitutional
claims debatable or wrong." Id. "When a district

Page 9 of 9
2018 U S. Dist. LEXIS 169978, *21

court denies a habeas petition on procedural
grounds without reaching the petitioner's
underlying constitutional claim, a COA should
issue when the petitioner shows, at least, that jurists
of reason would find it debatable whether the
petition states a valid claim of the denial of a
constitutional right and that jurists of reason would
find it debatable whether the district court was
correct in its procedural ruling." Id.
In this case, reasonable jurists could not debate the
denial of Avila-Jaimes's § 2255 motion on
substantive or procedural grounds, nor find the
issues presented are adequate to deserve
encouragement to proceed. Miller—El v. Cockrell,
537 U.S. 322, 327, 123 S. Ct. 1029, 154 L. Ed. 2d
931 (2003) (citing Slack, 529 U.S. at 484). Thus, a
certificate of appealability shall not be issued.
Accordingly,
IT IS ORDERED that Movant Oscar AvilaJaimes's Motion to Vacate, Set Aside, or Correct
Sentence Under 28 U.S.C. § 2255 [ECF No. 978] is
DENIED.
IT IS ORDERED [*22] that the request for an
evidentiary hearing is DENIED.
IT IS FURTHER ORDERED that a certificate of
appealability is DENIED.
SIGNED this the 28th day of September 2018.
/s/ Sam Sparks
SAM SPARKS
SENIOR UNITED STATES DISTRICT JUDGE
End of Document

